BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Respondents' Brief in Opposition in Janssen
Pharmaceuticals, Inc., Johnson & Johnson Company,
and Janssen Research and Devlopement, LLC, v. A. Y.,
et al., Case 20-1069, was sent via Next Day Service to
the U.S. Supreme Court, and 3 copies was sent via
Next Day and e-mail service to the following parties
listed below, this 7th day of April, 2021:
Jay Philip Lefkowitz
Kirkland & Ellis LLP
601 Lexinton Ave.
New York, NY 10022
(212) 446-4800
lefkowitz@kirkland.com
Counsel for Petitioners
Thomas R. Kline
Charles Lyman Becker
Counsel of Record
Christopher A. Gomez
Ruxandra M. Laidacker
Kline & Specter, P.C.
1525 Locust St., Floor 19
Philadelphia, PA 19102
(215) 772-1000
chip. becker@klinespecter.com

(800) 890.5001

8790 Governor's Hill Drive
Suite l 02

www.beckergallagher.com

Cincinnati, Ohio 45249

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

, Franklin Square
i 1300 I Street, NW, Suite 400E
Washington, DC 20005

Jason A. Itkin
Arnold & Itkin
6009 Memorial Dr.
Houston, TX 77007
Stephen A. Sheller
Sheller, P.C.
1528 Walnut St., 4th Floor
Philadelphia, PA 19102
Counsel for Respondents

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 7, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commisr-:on Expires
Feb:;rnry 14, ?023

